                           Office of Inspector General
                          Corporation for National and
                                   Community Service




      INDEPENDENT AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE'S
FISCAL YEAR 2003 FINANCIAL STATEMENTS
         MANAGEMENT LETTER

         Audit Report Number 04-02
              October 31,2003




                                           Corporation for
                                          NATIONAL w
                                                                       n


                                          COMMUNITY
                                          SERVICE-




                   Prepared by:

           COlTON & COMPANY LLP
        333 North Fairfax Street, Suite 401
            Alexandria, Virginia 22314




 This report was issued to Corporation management on January 20,2004. Under
 the laws and regulations governing audit follow-up, the Corporation is to make
 final management decisions on the report's findings and recommendations no
 later than July 20, 2004, and complete its corrective actions by January 20,
 2005. Consequently, the reported findings do not necessarily represent the
 final resolution of the issues presented.
                               Office of Inspector General
                     Corporation for National and Community Service

                                 Independent Audit of the
                    Corporation for National and Community Service's
                Fiscal Year 2003 Financial Statements - Management Letter
                                    Audit Report 04-02



Introduction

In accordance with the Government Corporation Control Act (31 U.S.C. $9 9101-lo), the Office
of Inspector General (OIG) engaged Cotton and Company LLP to audit the Corporation for
National and Community Service's fiscal year 2003 financial statements. Their audit, conducted
in accordance with government auditing standards, resulted in an unqualified opinion on the
Corporation's financial statements. Audit Report 04-01, Audit of the Corporation for National
and Community Service S Fiscal Year 2003 Financial Statements, describes the basis for the
opiniofi as well as a reportable condition: the Corporation's monitoring of grantee activities.
This reportable condition was not considered a material weaknesses.

During the engagement, the auditors also noted certain matters involving the control over
financial reporting and other operational matters that were not considered material weaknesses or
reportable conditions. This report discusses these conditions and includes recommendations for
corrective action.

The OIG is responsible for evaluating the procedures performed, monitoring the audit's progress,
and reviewing the auditor's work papers supporting the conclusions in this report. Our review of
the auditors' work papers disclosed no instances where Cotton and Company did not comply
with, in all material respects, generally accepted government auditing standards.

We provided a draft of this report to the Corporation for review and comment. The response is
included as Appendix A. In the response, the Corporation agreed with the recommendations and
stated that corrective action has been completed on many of the conditions.
                   INDEPENDENT AUDIT OF THE
     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE'S
 FISCAL YEAR 2003 FINANCIAL STATEMENTS - MANAGEMENT LETTER

                                       Table of Contents
                                                                                           Page
Transmittal Letter

Appendix A - Recommended Improvements

Grants Management                                                                           1

A. 1. Office of Management and Budget (OMB) Circular A-1 33 audit findings are not
      resolved in a timely manner
A.2. Grant closeout procedures do not ensure that projects are closed in a timely manner

National Service Trust

B. 1.   Discrepancies exist between WBRS and eSPAN reports
B.2.    Member end-of-term forms are not always processed in a timely manner
B.3.    Interest forbearance procedures are not always followed
B.4.    Trust investment reconciliations are not performed in a timely manner
B.5.    National Service Trust disbursements were late

Accounts Receivable and Debt Collection

C. 1. VISTA receivables of $30 and under are directly written off
(2.2. Debt collection activities are inconsistently conducted
C.3. Cost-share agreements are not reconciled in a timely manner and discrepancies exist
      between eSPAN and Momentum

Human Resources and Payroll

D. 1. Overtime was not always approved in writing
D.2. Controls over time sheet reporting are weak in some instances

Vendor Payments

E. 1. Vendor payments are not always disbursed in a timely manner

General EDP Controls Review

F. 1. Certain general controls on information security are weak

Appendix B - Status of Prior-Year Management Letter Comments

Appendix C - Corporation Response
Inspector General
Board of Directors
Corporation for National and Community Service


                           INDEPENDENT AUDIT OF THE
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE'S
         FISCAL YEAR 2003 FINANCIAL STATEMENTS - MANAGEMENT LETTER


In planning and performing our audit of the financial statements of the Corporation for National and
Commwnity Service as of and for the year ended September 30,2003, we considered the Corporation's
internal control to determine auditing procedures for the purpose of expressing an opinion on the
financial statements and not to provide assurance on internal control.

During the audit, however, we became aware of several matters that present opportunities for
strengthening internal control and operating efficiency. We previously reported on the Corporation's
internal control in our report dated October 3 1,2003. This letter does not affect our report dated October
3 1,2003, on the financial statements of the Corporation.

We will review the status of these comments during our next audit of the Corporation's financial
statements. We have already discussed many of these comments and suggestions with the Office of the
Inspector General and various Corporation staff, and we will be pleased to discuss these comments in
further detail at your convenience. Our comments and recommendations are attached.

We would like to express our appreciation to Corporation representatives who assisted us in completing
our audit. They were always courteous, helpful, and professional.

Very truly yours,




Alan Rasenthal, CPA
Partner

October 3 1,2003
Alexandria, Virginia




                            -   -     -     -     -          --                  --


                           333 North Faxfax Street + Slute 401 + Alexandria, Vlrgha 22314
               703/836/6701+ rAx 703/836/0941 + vsvcuu.co'rro~c~~.co~   6 IX~~'~~ON@C~~~NCPA.COM
                                                                                               APPENDIX A


                           INDEPENDENT AUDIT OF THE
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE'S
         FISCAL YEAR 2003 FINANCIAL STATEMENTS - MANAGEMENT LETTER

Cotton & Company LLP conducted the fiscal year (FY) 2003 financial statements audit of the
Corporation for National and Community Service. During the audit we became aware of several matters
that present opportunities for strengthening internal control and operating efficiency. These matters are
discussed in this management letter in the following categories:

                Grants Management
                National Service Trust
                Accounts Receivable and Debt Collection
                Human Resources and Payroll
                Vendor Payments
                General EDP Controls

GRANTS MANAGEMENT

A.1.    Office of Management and Budget (OMB) Circular A-133 audit findings are not resolved in
a timely manner.

The Corporation reviews the Federal Audit Clearinghouse (FAC) database during the award approval
process to determine if grantees submitted audit reports to FAC in accordance with OMB Circular A-1 33
and if any findings related to the Corporation.

Of our sample of 32 grantees, two grantees did not resolve and close A-133 audit findings in a timely
manner (i.e., within one year of receipt).

To ensure that grantee internal control weaknesses and noncompliance issues are identified and properly
resolved in a timely manner, we recommend that the Corporation ensure that FAC reviews occur on a
regular basis to identify grantees with noted weaknesses and compliance problems prior to grant award
funding. We recommend that personnel responsible for resolution and closure follow up with grantees in
a timely manner to ensure that exceptions are corrected.

A.2.    Grant closeout procedures do not ensure that projects are closed in a timely manner.

The Corporation has several policies regarding grant closeout. We noted, however, that effective
communication among grant managers, grant specialists, and grantees does not always occur.
Corporation personnel attempt to accommodate grantees, which sometimes results in grant closeouts not
being performed in accordance with the Corporation's policies for timeliness. A principal cause is the
failure by grantees to submit final Financial Status Reports (FSRs) within the allotted 90-day period
following the end of the grant period.

We reviewed a sample of 61 closed grant files and noted that 20 files were not closed within 180 days
from the end of the project period. Of these 20 files, 14 were attributed to grantees failing to submit their
closeout documents within the allotted 90-day period.

Another related condition is that some grantees do not submit their semi-annual FRSs in a timely manner.
We reviewed 5 1 open grant files and noted that 18 grantees had not submitted FSRs within the required
30-day period. This weakness in grants management has been identified in previous management letters.
                                                                                              APPENDIX A


Inconsistent closeout procedures place the Corporation at risk of not identifying amounts advanced to
grantees that should be returned to the Corporation. Furthermore, inconsistent closeout procedures
prevent the Corporation from making timely adjustments to financial statements, if required.

We recommend that the Corporation develop a consistent method of identifying expired grants and
enforce timely administrative closeout of these grants. Further, we recommend that the Corporation
develop timelines for service center staff to request required documentation before the expiration date to
ensure that grants are closed in a timely manner. Also, we recommend that the Corporation communicate
the importance of semi-annual FRSs to applicable grantees and perform follow-up procedures when
grantees are late.

NATIONAL SERVICE TRUST

B.1.    Discrepancies exist between WBRS and eSPAN reports.

We reviewed reconciliation reports between the Web-Based Reporting System (WBRS) and the
Electronic System for Programs, Agreements, and National Service Participants (eSPAN) and noted
discrepancies in four of the 30 reports reviewed. In another test, member data for three out of 30 items
tested did not agree between eSPAN and WBRS.

Previous management letters have identified this weakness. The continued presence of unreconciled
items on reports causes an increased report size, which may result in inefficient time management by
cluster representatives or failure by representatives to reconcile reports at the level expected by the
Corporation. Inaccurate information in eSPAN could cause errors in the disbursement of education
awards and inaccuracies in the computation of the National Service Award Liability for financial
statement purposes.

We recommend that the Corporation establish policies and procedures to ensure that WBRS and eSPAN
reports are reconciled, and discrepancies are identified, resolved, and cleared from reports in a timely
manner.

B.2.    Member end-of-term forms are not always processed in a timely manner.

We reviewed 30 files of National Service Trust members and noted that 1 1 exited members were not
processed in a timely manner. Of these, eight members were processed between 30 and 60 days, one was
processed after 85 days, one was processed after 180 days, and one was processed after 330 days.

Previous management letters have identified this problem. Delays in processing member exit information
could impact calculation of the National Service Award Liability and related expenses.

We recommend that the Corporation re-emphasize the importance of timely processing member exit
information within the allotted 30-day period following a member's completion of service.

B.3.    Interest forbearance procedures are not always followed.

Corporatiop policies require that interest forbearance payments over $5,000 be approved by the
Supervisor of the Trust. Six payments over $5,000 were made during FY 2003, and the Supervisor did
not approve two of these payments.

We recommend that the Corporation re-emphasize the importance of following this approval policy and
periodically run reports to ensure that all interest forbearance requests over $5,000 are verified and
approved before payment.
                                                      2
                                                                                           APPENDIX A



B.4.   Trust investment reconciliations are not performed in a timely manner.

The Corporation did not reconcile the Trust investment subsidiary ledger (QuickBooks) to the general
ledger (Momentum) in a timely manner. As of September 30, the July and August reconciliations had not
been prepared. During our review of the May reconciliation, we found that prepaid interest from
investment and interest receivable was incorrectly posted in Momentum. Interest receivable was
overstated by $155,929 and was not corrected until year end. Had the Corporation performed the
reconciliation in a timely manner, these errors could have been detected and possibly corrected in the
normal course of business.

We recommend that the Corporation establish and enforce a policy of timely reconciliations and that the
Trust Supervisor be responsible for ensuring that reconciliations are performed and all differences are
resolved.

B.5.    National Service Trust disbursements were late.

We reviewed 45 Education and Interest Forbearance award payments and noted that four disbursements
were made after the allotted 30-day period. These delays inconvenience members and result in a
misstatement of the Trust liability. Discussion with the Trust Supervisor indicated that mechanical
problems with the imaging software were the cause of these delayed payments. Trust staff were,
however, unaware of the problem until a member inquired about the status of a payment.

We recommend that the imaging software be upgraded to prevent this situation from recurring. We also
recommend that procedures be implemented to track the timeliness of all award payments and that the
Trust staff be required to document the reason for any delays in excess of 30 days.

ACCOUNTS RECEIVABLE AND DEBT COLLECTION

C.1.    VISTA receivables of $30 and under are directly written off.

We noted during our review of VISTA receivables that the Corporation is unable to automatically age
these receivables. Because the procedure is manual, it is only performed annually. To facilitate this
manual process, the Corporation has decided to write off any VISTA receivable of $30 and under. While
the direct write-off method is contrary to generally accepted accounting principles (GAAP), the amounts
are too small to have a significant impact on financial reporting. We found no documentation to support
this departure fiom GAAP or to document the policies and procedures regarding execution of this
actlvity .

Without policies and procedures, proper monitoring may not occur, resulting in debt being written off
without supporting documentation or research to determine why it is outstanding. One of the causes of
the VISTA receivables problem is that sponsor verification reports were not always submitted to State
offices by sponsor organizations in a timely manner. In two of 30 cases reviewed, reports were not
submitted. These two instances did not result in overpayments, but the possibility for overpayment exists.

Because the Corporation cannot automatically age these receivables, we recommend that it completely
document the reason for the departure from GAAP. The Corporation should also document procedures
for executing write-offs and the level of supporting documents required for such a transaction.
Additionallp, we recommend that the Corporation emphasize the importance of sponsor verification
reports andlstrengthen monitoring of delinquent sponsors. The Corporation should also require all
sponsors to have alternate personnel available to perform these functions when needed.
                                                                                          APPENDIX A


C.2.   Debt collection activities are inconsistently conducted.

Debt collection activities are not consistently conducted in accordance with Corporation policies and
procedures. We reviewed eight cost-share agreements and identified one agreement with delinquent
payments. We also reviewed five VISTA members and identified three members with outstanding debt.

We recommend that the Corporation review and emphasize debt collection policies to Corporation staff,
and implement monitoring procedures to ensure that policies are followed.

C.3.   Cast-share agreements are not reconciled in a timely manner and discrepancies exist
between eSPAN and Momentum.

We reviewed eight closed cost-share agreements (CSAs) and noted that two were not reconciled in a
timely manner following the end of the cost-share period. Two other agreements contained discrepancies
between expenses recorded in eSPAN and revenues recorded in Momentum. Attempts to fix these two
CSAs resulted in an unsupported special voucher and an outstanding difference. In these cases, there was
a lack of communication between the program specialist and accounting personnel, and a lack of
supporting documentation to research adjustments. The effect is that revenue can be misstated in
Momentum.

We recommend that the Corporation establish reconciliation criteria for CSAs and require that every
adjustment in eSPAN be fully documented. We also recommend that all discrepancies between eSPAN
and Momentum be researched and resolved in a timely manner.

HIJMAN RESOURCES AND PAYROLL

D.1.    Overtime was not always approved in writing.

We reviewed time sheets and noted that overtime was recorded in four instances. Evidence of overtime
approved in writing in advance was missing in three of the four instances. We verified the policy
requiring advance written approval of overtime with human resource management. This policy is not
clearly documented or correctly applied. Although an overtime approval form does exist, it is not
consistently used. Failure to attach this form to time sheets limits the monitoring abilities of the
timekeeper. Unapproved overtime may be misused by employees and may not be budgeted for by
supervisors.

We recommend the Corporation clearly document and distribute this advance written approval policy and
allow timekeepers to reject time sheets without proper attachments.

D.2.    Controls over time sheet reporting are weak in some instances.

We noted other isolated instances in which controls over time sheet reporting are weak. We identified
one instance in which a time sheet was inaccurately entered into the Personal Computer Time and
Attendance for Remote Entry (PC-TARE) system. We noted another instance in which leave approvals
exceeding 24 hours were not maintained in personnel files. We also noted one instance of compensatory
time being earned without prior written approval, and one time sheet was not initialed by the timekeeper
as evidence of review.

We recommend that the Corporation implement procedures to improve the accuracy of transferring time
sheet data into PC-TARE. We also recommend that existing policies addressing leave approval be re-
emphasized to Corporation staff. Finally, we recommend that timekeepers perform a quality review of
each time sheet before submission and initial each time sheet to document this review.
                                                    4
                                                                                             APPENDIX A




VENDOR PAYMENTS

E.1.    Vendor payments are not always disbursed in a timely manner.

We reviewed 108 procurements, and found 34 procurement disbursements that were paid in excess of 30
days. The Corporation appropriately included interest when disbursing these late payments, which
prevented violations of the Prompt Payment Act. Also, the interim balances of accounts payable were
understated by $163,889. One reason for the delay is that certain contracts have to be verified by several
offices to ensure that goods and/or services have been provided before vendor payments are made.

We recommend that the Corporation place stricter controls over responsible offices, re-emphasize the
importance of timely payments, investigate offices with delinquent payments, and resolve bottlenecks in
the disbursement process.

GENERAL EDP CONTROLS REVIEW

P.1.    Certain general controls on information security are weak.

As part of the FY 2003 audit, we reviewed controls over systems that process and report information in
support of the Corporation's annual financial statements. We also reviewed network access controls used
to secure and safeguard financial information traveling over the network. This review was conducted
under the guidelines of the General Accounting Office's (GAO) Federal Information Systems Control
Audit Manual (FISCAM).

The systems included in our audit were:

                Windows NT and 2000 servers (network)
                Momentum Financial System
                Electronic System for Programs, Agreements, and National Service Participants (eSPAN)
                eGrants
                Health and Human Services Payment Management System (HHSIPMS)
                Web-Based Reporting System (WBRS)
                National Finance Center PersonnelIPayroll System (NFCIPPS)

We relied upon special publications and guidelines developed by the National Institute of Science and
Technology (NIST); guidelines developed by the National Security Agency (NSA); OMB Circulars A-
123, A-127, and A-130 (Appendix 111); and Control Objectives for Information and Related Technology
(CobiT) as review criteria.

In conducting our review of internal control over information technology (IT), we reviewed controls in
the following FISCAM categories:

                 Entity-wide security program planning and management
         w       Access controls
                 Application software development and program change controls
         w       System software controls
                 Segregation-of-duty controls
                 Service continuity controls

Within these six review areas, we noted three conditions in which the information security general control
environment is weak. While the Corporation has practices in place, it does not have formal, documented
                                                     5
                                                                                                APPENDIX A


policies and procedures in place for all practices. In addition, we found that technical controls and
practices were lacking in the network operating systems. Also, technical control deficiencies within the
general support systems and network weakened controls within financial applications. This reduces the
reliability, integrity, and confidentiality of the financial data used to prepare the Corporation's financial
statements.

The instances we noted are discussed below.

                 The current Windows NT and 2000 domain controllers are not configured in compliance
                 with NIST, NSA, and regulations.

         rn      Documentation of policies, procedures, and standards is not in place for some areas,
                 including:

                          Rules of behavior within application system security plans.

                          Program manager sign-off to approve system use within certification and
                          accreditation packages.

                          Account reviews for all systems.

                          Minimum baseline for password standards to be used in defining security
                          requirements for systems.

                          System development life cycle policy to include more specific criteria and
                          processes to perform when selecting commercial off-the-shelf software.

                          Changing and implementing systems.

                          Methodology for reviewing access to sensitive utilities.

                          Processing priorities not included in the business function report section of the
                          Disaster Recovery PlanJCOOP.

                          A final approved Overall Security Program Plan was not in place for most of the
                          reporting year.

                  The application programmer, who also acted as the backup database administrator
                  (DBA), had access to the production environment and, in turn, possessed the ability to
                  change applications and place changes into production. Management implemented
                  corrective actions during our review to mitigate this matter, and, accordingly, this issue is
                  considered closed.

To correct the above issues, we recommend that the Corporation's Office of Information Technology
(01T):

                  Review deficiencies identified by the audit team for the Windows 2000 server
                  configurations and take corrective actions to ensure that the configuration is in line with
                  NIST and NSA guidelines. To correct the Windows NT deficiencies, we recommend that
                  OIT complete its efforts to fully migrate from Windows NT to Windows 2000.

                  Document policies, procedures, and standards, as follows:
                                                        6
                                                                      APPENDIX A




Develop and document rules of behavior specific to major financial applications
and include them in the security plan for each application.

Modify written procedures for conducting system certification and accreditation
to require the program manager, or system owner, to acknowledge awareness of
residual risks and accept the associated risk of having the particular system in
production.

Develop fully documented procedures for the methodology and frequency of
account reviews currently conducted by OIT for the network platforms and
financial applications.

Document a minimum baseline configuration for passwords that must be adhered
to within all Corporation systems and applications.

Modify the current Corporation system development life cycle to include
procedures and processes for selecting commercial off-the-shelf software
products, and procedures that ensure that these products meet the Corporation's
security standards and needs.

Develop policies requiring future system implementations and changes, including
the network operating system, to be fully documented by detailing the reason for
the change, all planning decisions, and the final outcome of the implementation
or change.

Develop written procedures for reviewing lists of individuals with
administrative-level access to the network, and individuals with access to
sensitive system and developer utilities, to ensure that all individuals continue to
require such privileges in the performance of their assigned duties.

Modify the Disaster Recovery PladCOOP to include a business function report
section, which should note the priority of restoring the respective applications
and systems.

Finalize efforts to implement a documented and approved entity-wide security
program that will provide overall security policies and procedures to act as an
umbrella for all IT systems and operations. Also, document procedures for
periodically reviewing and updating the program to ensure that it meets current
business and technology needs.
                                                                                            APPENDIX B


STATUS OF PRIOR-YEAR MANAGEMENT LETTER COMMENTS

Fiscal Year 2002 Management Letter Comment               Fiscal Year 2003 Status
4.1 Oversight of OMB Circular A- 133 reporting           Management has fully implemented
should be improved.                                      corrective actions to address this issue. This
                                                         issue is closed. A new issue related to A-133
                                                         reporting is reported.
4.2 Site visit report monitoring should be improved.     This issue remains open.
4.3 Grant oloseout procedures should be improved.        This issue remains open.
4.4 Grant approval should be improved.                   Management has fully implemented
                                                         corrective actions to address this issue. This
                                                         issue is closed.
    The process of reviewing Web-Based Reporting         This issue remains open.
System (WBRS) Reconciliation Reports should be
strengthened.
B.2 Member end-of-term forms are not always              This issue remains open.
processed in a timely manner.
B.3 Certain members inappropriately received service     Management has fully implemented
awards.                                                  corrective actions to address this issue. This
                                                         issue is closed.
B.4 Overpayment of Education Awards.                     Management has partially implemented
                                                         corrective actions to address this issue. The
                                                         issue related to Trust Director approval of
                                                         interest forbearance awards over $5,000
                                                         remains open.
B.5 The Corporation's methodology for calculating the    Management has fully implemented
Service Award Liability estimate needs to be reviewed.   corrective actions to address this issue. This
                                                         issue is closed.
B.6 Improvements to Access Controls for the System       Management has fully implemented
for Programs, Agreements, and National Service           corrective actions to address this issue. This
Participants (eSPAN) need to be completed.               issue is closed.
E7 Database Integrity for the System for Programs,       This issue remains open.
Agreements, and National Service Participants
(eSPAN) periodically needs systematic review.
C.1 The Corporation's methodology for aging              Management has fully implemented
receivables needs to be reviewed.                        corrective actions to address this issue. This
                                                         issue is closed. A new issue related to
                                                         receivables is being reported.
D.l SF 133 reporting should be improved.                 Management has fully implemented
                                                         corrective actions to address this issue. This
                                                         issue is closed.
--
E.1 Procedures should be established to monitor          Management has fully implemented
compliance with NCSA Subsection 129(b) [42 U.S.C.        corrective actions to address this issue. This
12581(b)].                                               issue is closed.
--
                                                                                              APPENDIX B


Fiscal Year 2002 Management Letter Comment                  Fiscal Year 2003 Status
F.l Relianae cannot be placed on automatic controls for Management has fully implemented
VISTA volunteer payments.                               corrective actions to address this issue. This
                                                        issue is closed.
G.l Procedures should be established for the                OIT uses contractors to perform certifications
performanae of risk assessments.                            and accreditations, which include risk
                                                            assessments. Contractors are instructed to
                                                            follow OMB guidance in performing risk
                                                            assessments. This issue is closed.
G.2 The Business Continuity and Contingency Plan            This issue is closed. The BCCP is updated
(BCCP) should be updated and tested.                        and tested annually.
-
G.3 Specific policies, procedures, and controls should      This issue remains open. While OIT has
be established for transactions that flow across multiple   documented system interconnections within
systems.                                                    their system design documents, details of the
                                                            connections and the security over the
                                                            connections are not included in the written
                                                            system security plans.
                                                                                        APPENDIX C
                                              CORPORATION
                                              FOR NATIONAL
                                                     AND ---
                                              C O M M U N I T Y




         MEMORANDUM

         Date:          January 8,2004

         To:            Dan Lybert, Assistant Inspector General for Audit

         From:          Bill Anderson, Deputy CFO for Financial

         Subject:       Fiscal 2003 Management Letter


         Thank you for the opportunity to comment on the draft management letter on the results
         of the fiscal 2003 financial audit. The Corporation is pleased that it continues to receive
         a clean opinion on its financial statements and that the audit found continued
         improvement in our internal controls. The management letter recommends several areas
         for further improvement. The Corporation's response to each recommendation is
         outlined below. In addition, the Corporation has completed action on eight of the 14
         issues included in the report; therefore, this response serves as notice of final action for
         those items.

         Grants Management

         Recornmen dation A. I :

         The Corporation should ensure that Federal Audit Clearinghouse reviews occur on a
         regular basis to identify grantees with noted weaknesses and compliance problems prior
         to grant award funding. Personnel responsible for resolution and closure should follow
         up with grantees in a timely manner to ensure that exceptions are corrected.

         Corporation Response:

         The Corporation concurs with this recommendation. The audit report indicated that two
         out of 32 OMB Circular A-133 audits were not resolved within the one-year timeframe.
         This does happen on occasion with grantees, particularly for organizations in which the
         specific grantee is part of a larger A-133 report and the Corporation is not directly
         responsible for taking corrective action on findings. The Corporation recently filled a
         GrantdFinancial Analyst position that will oversee the A-1 33 audit resolution process
         and work with other staff to track and ensure timely resolution. The Corporation also
         established an A-133 database to track the resolution process in 2003. It is fully
         operational and will help the GrantsIFinancial Analyst ensure resolution is completed on
         time. [Corrective Action Completed]


                                                                                                              '"
1201 New York Avc., N.W. Washington, DC 20525 202-606-5000 www.nationalservice.org                   =
                                                                                               A proud part
                                                                                               USAS
                                   Senior Corps AmeriCorps Learn and Serve America
                                                10                                             Freedom Corps
                                                                                               The Pres~dcnt'sCall to S c ~ c c
                                                                             APPENDIX C




f i e Corporation should develop a consistent method of identifying expired grants and
&force timely administrative closeout of these grants; develop timelines for service
center staff to request required documentation before the expiration date to ensure that
grants are closed in a timely manner; and communicate the importance of semi-annual
FRSs to applicable grantees and perform follow-up procedures when grantees are late.

Corporation Response:

The Corporation concurs with this recommendation. In 2003, the Corporation began
managing its grants through an electronic system, eGrants. eGrants includes a module
for grant closeout which will be used in 2004. Ln eGrants, grantees receive reminders
when final FSRs and other required closeout documents are due. They also receive
notifications when reports are late. Corporation staff is also notified automatically if
reports are late so they can follow up with grantees. In addition, the grants staff is
developing an automatic process in eGrants to identify grantees who are over 45 days late
with their reports. The Corporation can then suspend access to grant funds through the
Payment Management System until the reports are submitted. [Corrective Action
Completed]


National Service Trust

Reconr mendatiorz B. I :

The Corporation should establish policies and procedures to ensure that WBRS and
eSPAN reports are reconciled, and discrepancies are identified, resolved, and cleared
from reports in a timely manner.

Corporation Response:

The Corporation concurs with the recommendation. Grants staff is working with the
Office of Information and Technology to alleviate the need for our dual system process.
Specifically, planning and development is underway to combine the components of
WBRS into the eSPAN system. In the interim the Corporation will review its
reconciliation procedures to ensure that discrepancies are resolved on a timely basis.
                                                                            APPENDIX C



Recommendation B.2:

f i e Corporation should re-emphasize the importance of timely processing of member
exit information within the allotted 30-day period following a member's completion of
service.

Corporation Response:

The Corporation concurs with the recommendation. A letter was sent to WBRS users by
the acting CEO to re-emphasize the need for timely posting of end-of-term documents.
We will also issue periodic reminders. [Corrective Action Completed]



The Corporation should re-emphasize the importance of following its interest forbearance
approval policy and periodically run reports to ensure that all interest forbearance
requests over $5,000 are verified and approved before payment.

Corporation Response:

The Corporation concurs with the recommendation. The two payments made without
Director approval occurred during a period of transition in the management of the trust
staff. The new Supervisor of the Trust has re-emphasized the need to have all payments
over $5,000 verified and approved by the Supervisor in advance of processing.
[Corrective Action Completed]

Recommendation B.4:

The Corporation should establish and enforce a policy of timely reconciliations of its
investment balances and the Trust Supervisor be responsible for ensuring that
reconciliations are performed and all differences are resolved.

Corporatiorr Response:

The Corporation concurs with the recommendation. Reconciliations of the investment
subsidiary ledger to the Corporation's general ledger are performed in a timely manner
and approved by the Supervisor of the Trust. The delays noted during the audit occurred
during a period of transition in the management of the trust staff. [Corrective Action
Completed]
                                                                           APPENDIX C




f i e Corporation should upgrade its imaging software; implement procedures to track the
timeliness of all award payments; and require Trust staff to document the reason for any
delays in excess of 30 days.

Corporation Response:

The Corporation concurs with the recommendation. We are reviewing the imaging
system to determine the feasibility of changes to ensure that problems are discovered and
resolved timely. Additionally, new procedures will be implemented to monitor
transactions posted to the &PAN database. Trust staff have been advised to document
any delays or problems in posting these transactions.


Accounts Receivable and Debt Collection

Reconrmendation C.1:

The Corporation should completely document its debt collection policy and procedures
for executing write-offs and the level of supporting documents required for such a
transaction; emphasize the importance of sponsor verification reports and strengthen
monitoring of delinquent sponsors; and require all sponsors to have alternate personnel
available to perform these functions when needed.

Corporatiotl Response:

The Corporation concurs with the recommendation. Corporation policies 400 - Debt
Collection, and 801 - AmeriCorps*VISTA Cost Share Agreements, document the
Corporation's policy and procedures for debt collection.

In addition, an August 2003 policy memorandum documents the VISTA receivable
threshold for adjustment (the threshold was raised to $40 in the August 2003
memorandum). The memorandum also provides policy guidance. However, in fiscal
2004, amounts related to VISTA payroll will no longer be classified as a write-off but an
adjustment charged to the VISTA budget. When the payroll costs are incurred for $40 or
less, the charge will be directly posted to the VISTA budget via the payroll process. No
receivable will be established. Thus, these items will not be aged.

The Corporation continues to stress the importance of timely reviewing of verification
reports and to include adequate backup for the review with sponsoring organizations.
The Corporation sends sponsors verification reports each pay period with instructions to
complete the review. In addition, the Corporation is developing an on-line process which
will allow the sponsors to communicate and confirm the continued service of all
participants via eGrants. Once implemented, the on-line process will replace the sponsor
verification report.
                                                                             APPENDIX C




Recommendation C.2:
ca



The Corporation should review and emphasize debt collection policies to Corporation
staff and implement monitoring procedures to ensure that policies are followed.

Corporation Response:

The Corporation concurs with the recommendation. We have and will continue to
emphasize the debt collection process and procedures with staff. In addition, we are
utilizing new aging reports first completed in fiscal 2003 and will continue to identify and
collect on outstanding debt. [Corrective Action Completed]

Recommendation C.3:

The Corporation should establish reconciliation criteria for Cost Share Agreements and
require that every adjustment in eSPAN be fully documented and research all
discrepancies between eSPAN and Momentum in a timely manner.

Corporation Response:

The Corporation concurs with the recommendation. The two cost-shares identified
during the audit as not reconciled timely have documented issues that need to be resolved
before completing the reconciliation. These efforts will continue until resolved. In
addition, the Corporation is working to improve the lines of communication among staff
and ensure proper supporting documentation is received in the future. [Corrective Action
Completed]


Human Resources and Payroll



The Corporation should clearly document and distribute its policy on obtaining advance
written approval for overtimelcomptime and allow timekeepers to reject time sheets
without proper attachments.

Corporation Response:

The Corporation concurs with the recommendation. An email was sent to all employees
reminding them of the policy for ensuring that all overtime/comptime is approved in
writing prior to the earning of the overtime, in addition to some other timekeeping issues
that we wanted to re-emphasize to all employees. [Corrective Action Completed]
                                                                          APPENDIX C



Recommendation 0 . 2 :

?'he Corporation should implement procedures to improve the accuracy of transferring
time sheet data into PC-TARE; reemphasize existing policies addressing leave approval
to Corporation staff; and require timekeepers to perform a quality review of each time
sheet before submission and to initial each time sheet to document this review.

Corporation Response:

The Corporation concurs with the recommendation. The Corporation is migrating to a
new payroll system in fiscal 2004. All timekeepers will receive training on the system.
The Office of Human Resources will go over all of their timekeeping responsibilities and
re-emphasize to them the importance of their role as timekeeper and their
responsibilities.


Vendor Payments



The Corporation should place stricter controls over responsible offices, reemphasize the
importance of timely payments, investigate offices with delinquent payments, and resolve
bottlenecks in the disbursement process.

Corporation Response:

The Corporation concurs with the recommendation. The Corporation adheres to the
Prompt Pay Act. The parameters in the Momentum financial system are designed to
ensure the proper treatment of transactions as they pertain to the Act. The Accounting
Office will work with staff that have vendor payment responsibility to ensure they are
trained in the overall payment process and the Prompt Pay Act. The Accounting Office
recently conducted teleconferences with field offices and met with Executive Officers to
emphasize the overall prompt payment controls and responsibilities. The Accounting
Office also reemphasized the importance of prompt review of multi-task invoices. The
Corporation will also review other possible enhancements including separate invoicing
per task for future contracts that are issued. [Corrective Action Completed]


General EDP Controls Review

Recommendation F. 1:

The Corporation's Office of Information Technology should review deficiencies
identified by the audit team for the Windows 2000 server configurations and take
corrective actions to ensure that the configuration is in line with NIST and NSA
guidelines. To correct the Windows NT deficiencies, we recommend that OIT complete
                                                                               APPENDIX C



its efforts to fully migrate from Windows NT to Windows 2000 and document policies,
procedures, and standards, as follows:

   Develop and document rules of behavior specific to major financial applications and
   include them in the security plan for each application.

   Modify written procedures for conducting system certification and accreditation to
   require the program manager, or system owner, to acknowledge awareness of residual
   risks and accept the associated risk of having the particular system in production.

   Develop fully documented procedures for the methodology and frequency of account
   reviews currently conducted by OIT for the network platforms and financial
   applications.

   Document a minimum baseline configuration for passwords that must be adhered to
   within all Corporation systems and applications.

   Modify the current Corporation system development life cycle to include procedures
   and processes for selecting commercial off-the-shelf software products, and
   procedures that ensure that these products meet the Corporation's security standards
   and needs.

   Develop policies requiring future system implementations and changes, including the
   network operating system, to be fully documented by detailing the reason for the
   change, all planning decisions, and the final outcome of the implementation or
   change.

    Develop written procedures for reviewing lists of individuals with administrative-
    level access to the network, and individuals with access to sensitive system and
    developer utilities, to ensure that all individuals continue to require such privileges in
    the performance of their assigned duties.

    Modify the Disaster Recovery PlanfCOOP to include a business function report
    section, which should note the priority of restoring the respective applications and
    systems.

    Finalize efforts to implement a documented and approved entity-wide security
    program that will provide overall security policies and procedures to act as an
    umbrella for all IT systems and operations. Also, document procedures for
    periodically reviewing and updating the program to ensure that it meets current
    business and technology needs.

Corparation Response:

The C'orporation agrees that its domain controllers are not configured in accordance with
all of the recommended parameters that have been issued by NIST and NSA. However,
                                                                           APPENDIX C



the Corporation has concluded that its domain controllers are operating in an
appropriately secure manner and that the current configurations have been set in
dcordance with the industry's best practices. For the Windows 2000 domain, the
Corporation will develop a process by which it will acknowledge the guidelines that are
set by NIST and NSA and, if configurations are not set in accordance with the guidelines,
a justification as well as the documentation to support the Corporation's configured
setting will be maintained. This process will be in place by April 1, 2004. For the
Windows NT domain, the Corporation continues to migrate functionality into the
Windows 2000 domain currently and plans to complete the migration by June 1, 2004.

The Corporation agrees that system documentation needs to be updated. During fiscal
year 2003 well over 100 documents were created that detail many aspects of the
Information Technology environment at the Corporation. The Corporation is also
developing a documentation methodology that will include the review of all system
documentation. This methodology will be in place by February 1,2004, with the
docun~entslisted in the management letter being created or updated by May 1, 2004, and
the remainder of all Information Technology documentation being reviewed by
December 3 1 , 2004.
